Barriers in Closing Child Support Enforcement Cases




                                                   September 2002

                                                   OEI-06-00-00471

                                         Office of Inspector General
                               Office of Evaluation and Inspections
                                                           Region VI
                            EXECUTIVE SUMMARY

PURPOSE

          To identify barriers confronted by State and local agencies in closing child support enforcement
          cases.

BACKGROUND

          In 1999, the Office of Child Support Enforcement (OCSE) revised Federal regulations by
          adding flexibility, which now allows State agencies to close child support enforcement cases for
          any one of 12 reasons. Closure of cases ends all State enforcement action in these cases.
          Regulations require that a case meet one of these 12 closure reasons, and that the State provide
          clients with a 60-day advance notice of closure under 9 of the reasons. In the report “Use of
          Federal Child Support Case Closure Regulations,” OEI 06-00-00470, February 2002, we
          estimated a 32 percent national child support enforcement case closure error rate, due primarily
          to inadequate notification.

          When conducting on-site data collection for the above cited report, we also gathered
          information from child support enforcement managers familiar with case closure practices in 10
          randomly selected States. We conducted a standardized interview with one or more managers
          in each State regarding their agency’s closure processes. We also examined the procedural
          steps involved in closing cases, documentation of closure activities, and written notices used by
          these States to inform clients of intended closures. The findings presented in this report are only
          representative of the 10 sample States, but the insight we gleaned from site visits and interviews
          will likely benefit other State child support enforcement agencies as they attempt to improve
          case closure procedures.

FINDINGS

Sample States are Hindered in Properly Closing Child Support Enforcement
Cases by Scarce Resources, Inconsistent Local Procedures, and Complex State
Legal Requirements

          While State child support enforcement managers report that they find the additional flexibility
          allowed by the 1999 regulations helpful, a number of barriers hinder State case closure
          activities. Local office managers cannot always devote sufficient staff time to identifying and
          reviewing potential closures because other enforcement tasks often take priority. At the same
          time, lack of automated processes and human error result in clients not being notified of
          impending closures. Even when provided, advance closure notices used by 6 sample States do
          not contain all the information needed, and States cannot

Barriers in Closing Child Support Enforcement Cases    i                                        OEI-06-00-00471
          always verify that notices are received by custodial parents. Among other problems, ineffective
          prompting systems contribute to closure improperly occurring too early. Use of overly complex
          State coding schemes and the need to coordinate with the courts complicate closures for child
          support enforcement staff. We also found that closures involving current and former TANF
          recipients and those closed for reasons of client non-cooperation, lost contact, and client-
          request pose particular difficulties for staff.

Sample States Attempt to Avoid Improper Closures Through Training, Monitoring,
and Reopening Child Support Enforcement Cases Closed in Error

          Sample States appear to be addressing the challenges of only closing cases with no potential for
          successful enforcement. States train caseworkers about case closure regulations and
          procedures, and provide special guides or manuals which instruct workers about how to
          perform each function of closure. Monitoring tools, such as State self-assessments, assist
          managers in identifying problems and improving closure processes. Finally, managers report
          that reopening any cases closed in error is easy, because States do not purge electronic
          records.

OPPORTUNITIES FOR IMPROVEMENT

          Based on our analysis of the experience of these States, we offer to the Administration for
          Children and Families (ACF) and State child support enforcement agencies the following steps
          to improve case closure processes.

          Develop a “model” advance closure notice for States to use as a template.

          Provide technical assistance and encourage States to improve their case closure
          processes by States’ incorporation of the following strategies:

          <	        Simplifying State child support enforcement case closure codes by aligning them
                    with the 12 Federal closure reasons.
          <         Automating State processes for identifying and closing cases.
          <         Performing routine monitoring of State child support enforcement case closure
                    activities.
          <         Targeting problematic child support enforcement case types and case closure
                    reasons for further staff review.
          <         Training local State child support enforcement staff to avert troublesome
                    procedural variation and to ensure that clients receive advance notice of closure.




Barriers in Closing Child Support Enforcement Cases   ii                                      OEI-06-00-00471
                         TABLE                           OF               CONTENTS

                                                                                                                                    PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Identifying Cases for Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Reviewing and Coding Closures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Providing Advance Notice . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Closing Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Particularly Challenging Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Strategies for Improving Case Closure Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12



OPPORTUNITIES FOR IMPROVEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17





Barriers in Closing Child Support Enforcement Cases                                                                           OEI-06-00-00471
                                        INTRODUCTION

PURPOSE

          To identify barriers confronted by State and local agencies in closing child support enforcement
          cases.

BACKGROUND

          Federal law has long recognized that State child support enforcement agencies must have the
          capability to close cases for various reasons. For example, States close cases in which a child
          support order is no longer enforceable because the child has reached the age of emancipation.
          States may also wish to close cases with little likelihood of successful enforcement, such as
          cases in which the custodial parent provides no useful information about the noncustodial parent
          or alleged father. Because child support will not be enforced once a case is closed, States must
          exercise care in closing these cases. Federal regulation is designed to ensure that cases are
          closed only after they are completely resolved or determined to be unworkable.

Federal Regulations

          Under the 1988 Family Support Act, the Office of Child Support Enforcement (OCSE)
          established case closure criteria allowing States to close certain cases.1 However, these
          regulations were criticized by some who argued the regulations made it too difficult to close
          certain unworkable cases. In response to the complaints, OCSE formed a review committee in
          1996 comprised of staff and elected officials from local, State, and Federal governments to
          review the regulations. The committee review led to revised Federal child support enforcement
          case closure regulations that became effective April 9, 1999.2 According to the final rule, the
          new regulations “balance [OCSE’s] concern that all children receive the help they need in
          establishing paternity and securing support, while being responsive to administrative
          concerns for maintaining caseloads that include only those cases in which there is
          adequate information or likelihood of successfully providing support.”3 The 1999 rule
          added flexibility that generally made it easier for States to close more cases. It also enhanced
          client safeguards designed to ensure that States notify child support enforcement clients before
          closing cases.

          Current regulations allow, but do not require, State child support enforcement agencies to close
          cases that meet one of the 12 Federal child support enforcement closure reasons. Four of the
          closure reasons cannot be used to close cases involving current recipients of Temporary
          Assistance for Needy Families (TANF). Nine of the 12 closure reasons require that the
          recipient of services (typically a custodial parent or another State) be notified of the State child
          support enforcement agency’s intent to close the case.


Barriers in Closing Child Support Enforcement Cases    1                                          OEI-06-00-00471
                Twelve Allowable Closure Reasons Under Federal Regulations

                Notice Required
                          No Enforceable Order and Arrearages Less Than $500

                          Noncustodial Parent is Deceased

                          Paternity Cannot Be Established

                          Noncustodial Parent’s Location is Unknown

                          Noncustodial Parent is Disabled, Institutionalized, or Incarcerated

                          Noncustodial Parent is a Foreign Citizen

                          Agency has Lost Contact with a Non-TANF Client

                          A Non-TANF Client is Non-cooperative

                          An Initiating State is Non-responsive in an Interstate Case



                Notice Not Required
                          Agency has Completed Locate-only Services in Non-TANF Case

                          Non-TANF Custodial Parent Requests Closure

                          A Good Cause Exception has Been Granted





          Notice must be provided in writing 60 days before closure of a child support enforcement case
          is allowed in 9 of the 12 allowable reasons for closure. A case must be kept open if, within 60
          days, new information becomes available which could lead to the establishment of paternity or a
          support order, or to enforcement of an existing order. Once a case is closed, the recipient of
          services may request that the case be reopened, if circumstances change and enforcement
          becomes possible.

          Earlier, we estimated the extent of errors in closing child support enforcement cases through a
          nationally representative sample of child support cases closed over a three-month period in
          2000. Our report, “Use of Federal Child Support Case Closure Regulations,” OEI 06-00-
          00470, February 2002, contains the full results. Our review revealed an estimated national
          case closure error rate of 32 percent, due primarily to inadequate notification.

State Incentives To Close Child Support Enforcement Cases

          State incentives for closing child support enforcement cases include freeing staff to concentrate
          on cases with greater likelihood of success and maximizing the Federal incentive funding.
          Closing unworkable cases may allow States to allocate their limited resources to cases with
          greater potential for successful enforcement. States may also improve their child support
          enforcement performance indicators, upon which much of the Federal incentive funding is
          based, by reducing the total number of cases in their caseload.4 While these incentives are
          legitimate reasons for closing unworkable child support enforcement cases, some advocates
          have voiced concern that States could be motivated to close difficult-to-work cases even
          though they may not meet a Federal closure reason.




Barriers in Closing Child Support Enforcement Cases               2                              OEI-06-00-00471
Monitoring Case Closures of Child Support Enforcement Cases

          Until the mid-1990s, OCSE conducted compliance audits of State child support enforcement
          cases, which included an analysis of closed cases. With passage of the Personal Responsibility
          and Work Opportunity Reconciliation Act, OCSE replaced compliance audits with a
          requirement that State child support enforcement agencies conduct annual self-assessments of
          their own performance.5 State agencies were required to begin reporting the results of their
          self-assessments, and any corrective actions proposed or taken, to OCSE in Fiscal Year
          1998.6 State agencies are encouraged to use their self-assessments as management tools to
          identify any weaknesses, non-compliance with regulations, and opportunities for improvement.
          Closure of cases is one of eight required categories that State agencies must assess. Federal
          self-assessment regulations require that at least 90 percent of closed child support enforcement
          cases reviewed by States meet the Federal regulations.7

          State self-assessments provide information about child support enforcement case closure
          activities in individual States. The reports for Fiscal Year 1999 (the most recent assessment
          period at the time of our study’s pre-inspection) showed many States had improperly closed at
          least some child support enforcement cases, and State agencies proposed a variety of
          corrective actions. These reports helped to identify both potential vulnerabilities related to
          closing cases and effective practices.8 However, there has been no national review since the
          new regulations were issued in 1999.

METHODOLOGY

Study Focus

          This report identifies barriers to proper case closure confronting 10 State child support
          enforcement agencies. Our observations and the experiences of managers described in this
          report are only representative of those 10 State child support enforcement agencies.
          Nevertheless, the insight we gleaned from site visits and interviews will likely benefit other State
          child support enforcement agencies as they attempt to improve case closure procedures.

Sample of States

          We randomly selected 10 States using a stratified sampling method. In selecting the States, we
          stratified the 48 contiguous States9 and the District of Columbia into two groups: one stratum
          included the eight States with the largest child support enforcement caseloads, which are known
          as the ‘Big 8’ States and have about 50 percent of the nation’s child support enforcement
          caseload;10, 11 and the other stratum included all other States. This stratification ensured that
          our sample contained some of the ‘Big 8’ States as well as States with smaller caseloads. We
          randomly selected four States from the large-caseload stratum: California; New York; Ohio;



Barriers in Closing Child Support Enforcement Cases    3                                          OEI-06-00-00471
          and Pennsylvania, and six States from the other stratum: Alabama, Connecticut, Mississippi,
          Montana, New Mexico, and South Carolina.

Data Collection

          We gathered information about closure processes from managers of all 10 State child support
          enforcement agencies. To gather this data, we interviewed at least one manager familiar with
          case closure procedures. Other agency personnel, such as the State child support enforcement
          agency director and information technology staff, also participated in some interviews. We
          used a standardized interview protocol to obtain information about various methods of
          identifying cases for closure, use of automation in the closure process, staff responsibilities, any
          problems experienced in closing cases, and vulnerabilities that could potentially lead to
          improper closure. We also examined the procedural steps involved in closing cases in these
          States and how agencies document closure activities. We also obtained examples of written
          notices used by the 10 States to inform clients of intended closures, and discussed their use with
          managers.

Analysis

          To better understand the potential improvement opportunities, our data in this report consists of
          qualitative information about State case closure processes and procedures, and examples of
          advance written notices sent to clients. Our analysis identifies commonalities and differences in
          State experiences in closing cases. We present trends among the 10 States in closure
          procedures, practices, and barriers, as well as unique State problems and strategies. We also
          determined the information that was needed in advance notices to fully inform clients of an
          impending closure and whether notices used by the 10 State child support enforcement
          agencies contained this information.

          This study was conducted in accordance with the Quality Standards for Inspections issued by
          the President’s Council on Integrity and Efficiency.




Barriers in Closing Child Support Enforcement Cases    4                                         OEI-06-00-00471
                                                  FINDINGS

          We gathered information from child support enforcement managers familiar with case closure
          practices in 10 randomly selected States regarding the procedural steps involved in closing
          cases, documenting closure activities, and written notices used by these States to inform clients
          of intended closures. We found that barriers to proper closure include scarce resources,
          inconsistent procedures, and complex legal requirements. Closing certain types of cases also
          poses particular difficulties to staff. Agency managers are largely aware of these barriers and
          appear to be making efforts to improve processes through staff training and monitoring.

IDENTIFYING CASES FOR CLOSURE

          Child support enforcement agencies from the 10 sample States reported closing 198,483 cases
          over a three-month period in 2000. These closures represent approximately 3.5 percent of the
          total 1999 child support enforcement caseload of the 10 States.12 Managers from all 10
          sample States report their agencies have established procedures to identify unworkable child
          support cases potentially eligible for closure.

As child support enforcement agencies in sample States increasingly attempt to
close cases, they find the added flexibility of the 1999 regulations helpful

          Child support enforcement managers from the 10 sample States generally report aggressively
          seeking to identify cases that are eligible for closure and suggest that the 1999 regulation
          changes make closure easier. Believing that their caseloads contain far more unworkable cases
          than are currently being closed, managers generally express a desire to close more cases.
          Closing unworkable cases reportedly allows caseworkers to concentrate their activities on
          cases with greater likelihood for successful enforcement. By removing unworkable cases from
          the automated work lists, closure allows workers to focus on cases with more potential for
          collections. Managers also view case closure as an increasingly important tool for improving
          performance. The removal of unworkable cases from caseloads reportedly improves the
          numerical performance measures that determine Federal incentive funding to States.

Child support enforcement agencies in all sample States use various automated
techniques in identifying cases for closure

          Child support enforcement agencies in the 10 sample States use a number of automated
          techniques to initially identify cases that are potentially eligible for closure. Some of the more
          effective techniques involve automated queries of State caseload databases, both as special
          initiatives and routine reports. An example of a special initiative is a project conducted in a
          large metropolitan county in one sample State. For this initiative,



Barriers in Closing Child Support Enforcement Cases    5                                          OEI-06-00-00471
          computer programmers queried the automated system to identify cases in which the agency had
          been unable to locate the noncustodial parent or alleged father, and cases with dependents who
          had reached the age of emancipation. More than 60,000 cases were identified as potentially
          eligible for closure, and the State eventually closed most of these cases. Sample States also use
          automated systems to produce daily and periodic reports which alert caseworkers to review
          cases for potential closure. Examples of automated reports include prompts indicating that
          location efforts have been unsuccessful for one or three years, a dependent has reached the age
          of emancipation, or paternity cannot be established because of the age of the dependent.
          Cases identified through these reports are often added to daily work lists, providing
          caseworkers with a steady stream of cases to review for closure.

Identification and closure of child support enforcement cases is hindered
somewhat because local offices do not all have the same resources or
procedures for conducting closure activities

          Many local offices reportedly do not have sufficient staff to devote time to identifying and
          closing cases. Some of these staff resource constraints can be mitigated by the use of
          automation. For example, the most advanced automated systems reportedly allow computer
          queries to identify a large number of cases eligible for closure with enough precision to avoid
          identifying cases that do not meet a closure reason. These systems can also send the
          appropriate closure notice to the client and close the case at the end of the waiting period, with
          little additional human effort. Managers express a great deal of satisfaction with these advanced
          systems and report very few persistent problems. However, less advanced automated systems
          do not have the same capabilities to identify and process closures. In addition, some closure
          reasons are not conducive to fully-automated closure, such as closures involving the death of a
          noncustodial parent. Therefore, some potential closures only become apparent through routine
          casework or by staging special initiatives to manually find cases in the system. Yet even when
          cases are identified as eligible for closure, staff must often choose between handling the closure
          or conducting other work. Caseworkers may decide that undertaking enforcement efforts in
          other cases, such as setting up wage withholding, are a better use of their time.

          Procedures for identifying and closing child support enforcement cases also reportedly vary by
          locality. For example, a single staff member handles all case closure activities in some local
          offices, while individual caseworkers handle closure of cases in their assigned caseload in other
          local offices. Under the latter arrangement, staff are reportedly more likely to need to choose
          between devoting their attention to case closure or other tasks.

          To overcome these local office barriers to properly closing cases, at least one sample State
          child support enforcement agency supplements local efforts by assigning central office staff to
          conduct special case closure projects. Another sample State agency has created a special task
          force to help local offices more consistently process closures.




Barriers in Closing Child Support Enforcement Cases   6                                        OEI-06-00-00471
REVIEWING AND CODING CLOSURES

Errors may occur if caseworkers do not review child support enforcement cases
prior to closure

          Once a case is identified as eligible for closure for a particular reason, caseworkers are usually
          responsible for reviewing the case to validate that it meets the closure reason. Closure reviews
          typically involve a caseworker reading case diaries, checking dates of events, confirming
          previous enforcement efforts, and examining court orders, payment histories, and account
          balances. This is largely a perfunctory step if eligibility for closure was initially identified by the
          caseworker. However, these reviews are often integral to avoiding erroneous closures for
          cases identified by automated systems. Managers report that the large volume of cases
          identified for closure through automated methods makes it difficult for workers to review every
          case, and that closure errors may occur when each case is not reviewed. However, managers
          maintain that providing advance notice helps give clients an opportunity to avoid an unwanted
          closure, and if an error does occur, reopening an erroneously closed case is fairly easy.

Complicated State coding schemes and use of generic codes sometimes lead to
closure errors and to erroneous documentation in case records

          Once a case has been reviewed, caseworkers or managers typically must enter an appropriate
          closure code into their automated systems. Incorrect codes are reportedly entered because of
          confusing State coding schemes, which are only loosely aligned with the 12 closure reasons
          outlined in Federal regulations, or by the use of generic closure codes. All sample States have
          unique, sometimes complicated, schemes for coding a closure reason. Three sample States
          have more than 20 closure codes, with one of these three using as many as 90 codes. Not
          surprisingly, managers report that staff have difficulty dealing with so many codes. Two other
          States allow caseworkers to use a generic code, such as “Other Closure Reason,” rather than
          specifying the precise closure reason. When using a generic code, caseworkers sometimes add
          remarks to the case log that explain why it was closed. However, managers report instances in
          which no reason is documented in the records.

          Managers suggest that using a limited number of codes, which link directly to the Federal
          authority under which cases may be closed, helps reduce caseworker confusion and avoid
          potential errors. Five sample States have closely aligned their closure codes with the 1999
          regulations, so that each State code matches a Federal closure reason.




Barriers in Closing Child Support Enforcement Cases      7                                           OEI-06-00-00471
PROVIDING ADVANCE NOTICE

Clients are sometimes not provided notice of closure of their child support
enforcement case due to lack of automated processes or human error

          State child support enforcement agency managers are largely aware of problems with providing
          notice, because deficiencies have previously been identified through monitoring and self-
          assessment projects. Managers attribute notice problems to a lack of automation for generating
          notices and to human error. In one State, for example, staff reportedly use manual processes to
          bypass the automated document generating system designed to ensure that closure notice is
          provided. Where caseworkers must manually generate individual notices, managers report
          caseworkers sometimes take short cuts or skip notice altogether. Apparently, caseworkers
          sometimes think it is unnecessary to send notice when there is no longer a child support
          obligation, such as when the case has been paid in full, or when they assume a client already
          knows their case is being closed because of an obvious change in circumstances, such as when
          the child reaches the age of majority.

Even when a written notice of child support enforcement case closure is mailed,
notices may contain incomplete information and clients may not receive letters

          Based on content analysis of State case closure notices, we determined that clients need a
          minimum of six pieces of information to be fully aware of the agency’s intended action and of
          the client’s options in preventing an unwanted closure.

                         Six pieces of information needed in advance notices

                         1.         statement that the agency intends to close the case
                         2.         specific closure reason
                         3.         date of intended closure
                         4.         procedures for requesting a case not be closed
                         5.         contact name
                         6.         contact telephone number




          Our analysis found that only the notices used in 4 of the 10 sample States provide clients with
          all of this information. Notices used by the other 6 States omit important pieces of information,
          such as the closure reason, the date of closure, or how a client can request a case not be
          closed. We also found that notice letters used by one State contain inaccurate information
          about the length of the required waiting period before closure can occur. Two State closure
          notices provide all the necessary data plus additional information potentially useful to clients,
          such as a reminder that a case can be reopened at a later date or that clients may request that
          the agency close their case earlier than intended.



Barriers in Closing Child Support Enforcement Cases          8                                 OEI-06-00-00471
          All 10 sample State child support enforcement agencies send closure notices via first-class mail.
          One State switched from certified to first-class mail following the 1999 Federal regulation
          revisions, a change that has reportedly eased the overall process of closure. However, some
          managers are pessimistic about using first-class mail because it does not ensure that the client
          actually receives the notice, whereas certified mail requires the signature of the recipient. It is a
          reportedly frequent occurrence that first-class mail closure notices are returned by the post
          office as undeliverable. When this happens, staff sometimes take extra steps to inform a client
          of closure, such as attempting to obtain a new address through the Federal Parent Locator
          Service (FPLS), the postmaster, or the Internet. However, managers report that staff
          sometimes simply view a returned notice as further indication that the case should be closed.

CLOSING CASES

When States have ineffective prompting systems, closure of child support
enforcement cases may occur too early

          Once notice is provided to clients, agencies are required to ensure that no cases are closed
          before the 60-day notification period elapses. Caseworkers without the assistance of
          automated systems for this function bear the entire burden of reminding themselves when the
          waiting period has passed. Rather than waiting 60 days, managers report that caseworkers
          sometimes choose to close a case on the same day as notice is sent, possibly because notice is
          not viewed as being needed under particular circumstances. However, caseworkers are often
          alerted that the waiting period has elapsed by automated systems that calculate 60 days from
          the date the notice is generated. These automated prompts generally serve as effective
          reminders to complete the closure process, but they still sometimes contribute to early closure
          errors. For example, managers from one State report that some caseworkers deliberately used
          their system to create early closure errors, because they believed that 60 days is too long to
          wait for closure.

Coordinating with courts on closure of child support enforcement cases with
existing orders can complicate closures for staff

          Once the notice period elapses, the steps of actually closing a case depend on the type of case.
          Examination of State child support enforcement agency case closure procedures in the 10
          sample States reveals that cases that still need paternity or order establishment are fairly simple
          to close. Closing a case with no order may be as simple as changing a code in the automated
          system and moving a paper file to a different file cabinet. Additionally, electronic records are
          sometimes automatically updated once the notice period elapses, unless a caseworker takes
          steps to stop the automated closure process.

          Closing cases with existing support orders, however, often involves suspension of enforcement
          remedies, such as wage withholding, IRS intercept, and liens. Typically, all


Barriers in Closing Child Support Enforcement Cases    9                                          OEI-06-00-00471
          enforcement measures must be ended in order for the case to be properly closed, and any
          remaining balances must also be removed from case records. For example, some closures
          involve the client forgiving money that is owed to them, and possibly the agency forgiving a
          small amount of arrears assigned to the State. Ending enforcement actions and clearing
          balances often require action by the courts, which is achieved through fairly routine procedures
          for gaining judicial approval of closures.

          Despite the existence of routine procedures, obtaining a court order can sometimes be difficult,
          and the child support enforcement agency and courts may disagree about whether a case
          should be closed. For example, one manager explains that their State agency routinely initiates
          closure when requested by a non-TANF client, but judges sometimes will not dismiss the order,
          because they think the noncustodial parent will not live up to independent payment
          arrangements. Closure is reportedly complicated in another State, because most child support
          enforcement clients have cases with both the county clerks of court and the State child support
          enforcement agency. Both of these cases must be closed to end all obligations, requiring
          coordination between agency staff and clerks of court. In another State, closure is reportedly
          sometimes delayed because the noncustodial parent must petition the courts to terminate an
          order. Managers in that State were considering a more simplified method at the time of our
          data collection, whereby State child support enforcement agency staff can directly petition the
          court for closure, when needed.

PARTICULARLY CHALLENGING CASES

Child support enforcement cases involving current and former TANF recipients,
and those closed for reasons of client non-cooperation, lost contact, and client-
request, reportedly complicate closure

          Cases Involving Current and Former Recipients of TANF. Managers explain that staff
          tend to more aggressively close child support enforcement cases with non-cooperative clients,
          and that this aggressiveness may account for increased errors. Public assistance recipients are
          required to cooperate with child support enforcement agencies by providing information about
          the noncustodial parent. TANF recipients can be sanctioned, and adults can lose Medicaid
          coverage, for not cooperating with the child support enforcement agency. Managers report
          that some public assistance clients refuse to cooperate, and simply accept a sanction. Staff
          reportedly find it frustrating that they must attempt enforcement in these cases without the
          benefit of cooperation. Managers report that this frustration may lead caseworkers, who see
          little likelihood of success without client cooperation, to close cases, even if they do not
          technically meet a closure reason.

          Non-Cooperation. Some cases appear to be closed for non-cooperation despite the State
          child support enforcement agency having sufficient information to allow automated location
          efforts. States can immediately initiate case closure if a client, who is not


Barriers in Closing Child Support Enforcement Cases   10                                       OEI-06-00-00471
          currently a TANF recipient, does not cooperate with the child support enforcement agency
          when that cooperation is necessary for continued enforcement. Clients can be considered non-
          cooperative, if they fail to provide needed information, submit to genetic testing, appear in
          court, or keep appointments with caseworkers. It appears that in some cases closed for this
          reason, State child support enforcement agencies may have sufficient information to proceed,
          but can also document client non-cooperation. For example, managers report that staff
          sometimes send clients, who are leaving the TANF program, a letter to request more
          information about the noncustodial parent. If clients do not respond to these letters, perhaps
          because the clients have already provided all the information they know, staff reportedly
          sometimes immediately initiate closure for non-cooperation. Some managers defend such
          closures because they believe that the 60-day advance notice is an effective tool for getting
          clients to provide more information. Other managers feel that while it is permissible to close
          such cases for non-cooperation, cases with sufficient information to allow automated location
          efforts should not be closed, unless they meet requirements for the‘unable to locate’ reason.

          Lost Contact. Regulations regarding lost contact with a client, who is not currently a TANF
          recipient, reportedly frustrate some child support enforcement staff. States can close cases, if
          the child support enforcement agency is unable to contact a non-TANF client for 60 days, after
          making at least one attempt to contact the client by first-class mail at the last known address.
          Managers explain that the 60-day notice period seems too long in lost contact cases, given that
          staff have already sent a letter requesting contact and waited an initial 60 days. Also, if the first
          letter was returned by the post office, it seems to staff a waste of time to send the closure notice
          to the same, apparently invalid, address. Managers report that staff may simply not wait the full
          time, closing the case at the same time the closure notice is sent following the first 60 days, or
          when the letter is returned by the post office. As mentioned, managers report that rather than
          simply assuming they had lost contact with a client when a notice is returned, staff often attempt
          to obtain a new address by searching automated databases, such as the FPLS.

          Client-Request. State child support enforcement agencies can immediately close a case upon
          receiving a request from a client who is not currently a TANF recipient, as long as no debts are
          owed to the State. Managers report that staff sometimes aggressively close such cases, but it is
          not clear that all closures represent an actual client request. An example of this involves the
          “continuation of services” notices sent to child support enforcement clients who leave the
          TANF program in one sample State. These notices reportedly explain that parents may choose
          to continue receiving child support enforcement services, and require that parents return a form
          requesting continuation if closure is not wanted. This State reportedly considers the client’s
          failure to return the form as a client’s request for closure. Managers of child support
          enforcement agencies in other States report that their “continuation of services” notices provide
          custodial parents with a form to request closure, but they keep the case open if the parent does
          not respond.




Barriers in Closing Child Support Enforcement Cases    11                                         OEI-06-00-00471
STRATEGIES FOR IMPROVING CASE CLOSURE PROCEDURES

Child support enforcement agency managers in sample States reportedly stress
to staff that only unworkable cases should be closed

          Despite a desire to close cases, managers in sample States appear to place great emphasis on
          ensuring that staff only close cases with no potential for successful enforcement. Managers
          stress their awareness that, except in cases where child support obligations have been paid in
          full, closure often means families will go without needed support. To guard against unwarranted
          closures, managers explain that closure is normally avoided until all other options have been
          exhausted. As a result of efforts to guard against improper closures, managers report that most
          closures involve only cases that meet a closure reason.

Reopening any child support enforcement cases closed in error is easy, because
sample State agencies do not purge electronic records

          Managers in the 10 sample States suggest that staff concerned about client protection may be
          more comfortable closing cases that could eventually become enforceable, because they know
          the case can easily be reopened. Our examination of case closure documentation revealed that
          reopening a closed child support enforcement case is typically easy, because the previous
          electronic case record is readily available to caseworkers. Managers argue that while keeping
          information about closed cases takes up data storage space, having easy access to old records
          is preferable to beginning a new case. However, in one county-administered State, new cases
          appear to be created frequently when a client seeks services in a different county, because local
          staff do not have access to the electronic records in other counties within the same State. This
          practice appears to unnecessarily cause caseworkers to repeat work previously accomplished
          by others.

Sample State agencies train staff to follow proper case closure procedures

          Managers report that case closure training typically includes information on closure regulations
          and procedures, and using the automated system for closures. Such training may involve
          caseworkers practicing the closing of sample cases in training labs, with special attention paid to
          unusual circumstances. Additionally, workers may be provided with special guides or ‘cheat
          sheets’ and supervisors often continue on-the-job training of workers in the local offices.
          Computer-based policy and procedure manuals also help instruct workers about how to
          perform each case function of the closure process. Despite these efforts, managers explain that
          ongoing training may be needed, because staff may not become proficient at every task until
          they have months of experience. Additionally, managers emphasize that even the best training
          cannot compensate for staffing shortages and high turnover rates.




Barriers in Closing Child Support Enforcement Cases   12                                        OEI-06-00-00471
State child support enforcement agency officials view monitoring as an effective
means of improving case closure processes

          Managers of our 10 sample child support enforcement agencies are almost universally positive
          about monitoring tools, such as State self-assessments. They credit monitoring with identifying
          problems in providing closure notices, inadequately documenting closures in automated
          systems, and use of incorrect State closure codes. Once problem areas are identified, States
          can work with local office staff to implement corrective action plans. To further assist local
          offices, one State reports exploring the possibility of an Internet-based review tool to allow
          local managers to routinely monitor their office’s performance in case closures and other areas.




Barriers in Closing Child Support Enforcement Cases   13                                       OEI-06-00-00471
                    OPPORTUNITIES FOR IMPROVEMENT

          Based on our analysis of the experience of these 10 States, we offer to the Administration for
          Children and Families (ACF) and State child support enforcement agencies the following steps,
          which could improve case closure processes.

          Develop a “model” advance closure notice for States to use as a template. Using such a
          model notice can help States to ensure that each client is provided with all the information
          needed about closure of their child support enforcement case, while still affording States the
          opportunity to customize notices, as needed.

          Provide technical assistance and encourage States to improve their case closure
          processes by States’ incorporation of the following strategies:

          <	        Simplifying State child support enforcement case closure codes by aligning them
                    with the 12 Federal closure reasons. Complex coding schemes appear to confuse
                    caseworkers, potentially leading to errors or inaccurate information in case files. Use of
                    generic closure codes could be discouraged.

          <	        Automating State processes for identifying and closing cases. By using computer
                    queries of existing caseloads, State agencies could identify and close more unworkable
                    cases. Automation of closure procedures, including providing notice and closing cases
                    after notice, could help State child support enforcement agencies substantially reduce
                    errors, while still allowing for manual review when needed.

          <	        Performing routine monitoring of State child support enforcement case closure
                    activities. Such monitoring could provide information about existing problems and early
                    warnings of developing vulnerabilities. Monitoring could also allow State child support
                    enforcement agency managers to evaluate improvement strategies.

          <	        Targeting problematic child support enforcement case types and case closure
                    reasons for further staff review. Staff review of every closure does not appear
                    necessary. However, targeted review could help State child support enforcement
                    agencies to ensure that cases, involving current and former recipients of TANF and
                    cases closed for problematic reasons, are handled properly.




Barriers in Closing Child Support Enforcement Cases    14                                        OEI-06-00-00471
          <	        Training local State child support enforcement staff to avert troublesome
                    procedural variation and to ensure that clients receive advance notice of closure.
                    Training elements likely to be most valuable to staff include information on Federal child
                    support enforcement case closure regulations, State coding schemes, closure
                    procedures, documentation of closure activities, and the importance of providing
                    advance notice to clients in all cases where notice is required.




Barriers in Closing Child Support Enforcement Cases    15                                         OEI-06-00-00471
                                                      ENDNOTES


1. OCSE, Action Transmittal 89-15, August 4, 1989.


2. 64 Federal Register, 11810-11818, March 10, 1999.


3. Ibid., page 11811.


4. 64 Federal Register, 55073 - 55102, October 8, 1999.


5. Ibid., pages 55102 - 55110. “Federal audit requirements were changed to focus on data reliability

and to assess performance outcomes instead of determining compliance with process steps (p. 55103).

”


6. 45 CFR § 308.1(e).


7. 45 CFR § 308.2(a).


8. At the time of our study, State child support enforcement agencies had not yet standardized their

self-assessment methodologies enough for comparison across States.


9. Hawaii and Alaska were excluded from the sample frame because of the high cost of travel to those

States.


10. OCSE often targets technical assistance and evaluation efforts toward these ‘Big 8’ States because

their practices affect so many families. New Jersey was added to OCSE’s large State initiative, now

called ‘Big 8 + 1,’ subsequent to our sample selection for this study.


11. OCSE, Dear Colleague Letter 97-26, May 19, 1997.


12. 1999 is the last year for which OCSE has published data on total child support enforcement

caseloads.





Barriers in Closing Child Support Enforcement Cases      16                                 OEI-06-00-00471
                             ACKNOWLEDGMENTS


This report was prepared under the direction of Judith V. Tyler, Regional Inspector General for
Evaluation and Inspections in Dallas. Other principal Office of Evaluation and Inspections staff who
contributed include:

A. Blaine Collins, Team Leader                               Linda Hall, Program Specialist
Ruth Ann Dorrill, Program Analyst                     Joan Richardson, Program Specialist
Amy Ashcraft, Program Analyst                         Barbara Tedesco, Mathematical Statistician
Clark Thomas, Program Analyst
Scott Whitaker, Program Analyst
Lisa White, Administrative Officer




Barriers in Closing Child Support Enforcement Cases     17                                   OEI-06-00-00471
